                  U.S. ELECTION ASSISTANCE
                         COMMISSION
                 OFFICE OF INSPECTOR GENERAL




                             FINAL REPORT:


                 2008 Election Data Collection Grant Program
                       Award number: 08-EDC-800166
                              State of Minnesota



                     MAY 27, 2008 THROUGH JUNE 30, 2010




Report No.
E-GR-MN-04-12
September 2013
                                U.S. ELECTION ASSISTANCE COMMISSION

                                      OFFICE OF INSPECTOR GENERAL

                                     1201 New York Ave. NW - Suite 300

                                           Washington, DC 20005



Memorandum

                                                    September 12, 2013


To:	        Alice Miller
            Acting Executive Director

From:	      Curtis W. Crider
            Inspector General

Subject:    Final Performance Audit Report – 2008 Election Data Collection Grant
            Program Award Number: 08-EDC-800166, State of Minnesota
            (Assignment Number E-GR-MN-04-12)

        We contracted with the independent certified public accounting firm of McBride, Lock
& Associates to conduct the subject audit. The objectives of the audit were to identify costs
claimed in the Grant’s Financial Status Reports that were not allocable, allowable, reasonable,
and in conformity with United States Election Assistance Commission’s award terms and
conditions and applicable Federal grant requirements.

        In its audit, McBride, Lock & Associates concluded that the Minnesota Secretary of
State (SOS) generally accounted for and expended the Election Data Collection grant funds in
accordance with applicable requirements for the period from May 27, 2008 through June 30,
2010. However the following exceptions were identified;

         •	 The SOS’s inventory listings did not conform to the requirements of 41 C.F.R. 105­
            71.132 (d)(1), (the Common Rule). Various categories of required information were
            missing from the listings, including location and use and condition of property.

         •	 The SOS charged $31,415 in personnel expenses to the Grant which were not
            supported by adequate documentation.

         •	 The SOS lacks complete, documented departmental internal control policies.

       In its August 26, 2013 response to the draft report (Attachment A-1), the SOS provided
comments to the findings and corrective actions, as applicable, to address the recommendations.
The SOS did not agree with the finding related to unsupported payroll costs or the related
questioned costs of $31,145.

       In the report McBride, Lock & Associates summarized the SOS’s response to the
recommendations, as well as their comments on the responses after the recommendations. Also
included in the report is the EAC response to the draft report (Appendix A-2), dated August 12,
2013, which indicated that the EAC would work with the SOS to ensure corrective action.
       We would appreciate being kept informed of the actions taken on our
recommendations as we will track the status of their implementation. Please respond in
writing to the finding and recommendation included in this report by November 13, 2013.
Your response should include information on actions taken or planned, targeted
completion dates, and titles of officials responsible for implementation.

       To fulfill our responsibilities under Government Auditing Standards, the Office of
Inspector General:

       • 	 Reviewed McBride, Lock & Associates’ approach and planning of the audit;

       • 	 Evaluated the qualifications and independence of the auditors;

       • 	 Monitored the progress of the audit at key points;

       •	 Reviewed the audit report, prepared by McBride, Lock & Associates to ensure
          compliance with Government Auditing Standards; and

       • 	 Coordinated issuance of the audit report.

       McBride, Lock & Associates is responsible for the attached auditor’s report and
the conclusions expressed in the report. We do not express any opinion on the
conclusions presented in McBride, Lock & Associates audit report.

      The legislation creating the Office of Inspector General requires that we report to
Congress semiannually on all audit reports issued, actions taken to implement our
recommendations, and recommendations that have not been implemented.

       If you have any questions regarding this report, please call me at (202) 566-3125.



Attachment


cc: Director of Grants and Payments
       Performance Audit Report


2008 Election Data Collection Grant Program


      Award Number: 08-EDC-800166


             State of Minnesota



    May 27, 2008 through June 30, 2010





               United States


      Election Assistance Commission






                       McBRIDE, LOCK & ASSOCIATES
                                 CERTIFIED PUBLIC ACCOUNTANTS
                                                    KANSAS CITY
                          Performance Audit Report


                 2008 Election Data Collection Grant Program


                       Award Number: 08-EDC-800166


                              State of Minnesota



                              TABLE OF CONTENTS


                                                                                      Page

EXECUTIVE SUMMARY                                                                       1

BACKGROUND                                                                              2

AUDIT OBJECTIVES                                                                        3

SCOPE AND METHODOLOGY                                                                   4

AUDIT RESULTS                                                                           4

APPENDICES:

     Appendix A-1: Response of the Minnesota Secretary of State to the Draft Report
     Appendix A-2: Response of the U.S. Election Assistance Commission
                   to the Draft Report
     Appendix B:    Audit Methodology
     Appendix C:    Schedule of Awards as of June 30, 2010
     Appendix D:    Monetary Impact as of June 30, 2010
                       U.S. Election Assistance Commission


                            Performance Audit Report


                   2008 Election Data Collection Grant Programs


                         Award Number: 08-EDC-800166


                                 State of Minnesota



EXECUTIVE SUMMARY

McBride, Lock & Associates was engaged by the United States Election Assistance Commission
(EAC) Office of the Inspector General to conduct a performance audit of award 08-EDC­
800166, Election Data Collection Grant (Grant), to the Minnesota Secretary of State’s Office
(Office) from inception on May 27, 2008 through the award conclusion date of June 30, 2010 to
determine whether the Office was in compliance with EAC’s and Federal regulations concerning
award administration and management.

We conducted this performance audit in accordance with Generally Accepted Government
Auditing Standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on the audit objectives.

Based on the audit procedures performed, except for the matters discussed below, we concluded
that the Office generally accounted for and expended the Grant funds in accordance with the
requirements mentioned above for the period from May 27, 2008 through June 30, 2010. The
exceptions are as follows:

   1.		 The Office’s inventory listings did not conform to the requirements of 41 C.F.R. 105­
        71.132 (d)(1), (the Common Rule). Various categories of required information were
        missing from the listings, including location and use and condition of property.

   2.		 The Office charged $31,415 in personnel expenses to the Grant which were not supported
        by adequate documentation.

   3.		 The Office lacks complete, documented departmental internal control policies.

We have included in this report as Appendix A-1, the Secretary of State’s written response to the
draft report. Such response has not been subjected to the audit procedures and, accordingly, we
do not provide any form of assurance on the appropriateness of the response or the effectiveness
of the corrective actions described therein.




                                               1


BACKGROUND

In December 2007 Congress authorized the fiscal year 2008 Omnibus Appropriations Act
(Public Law 110-161, Title V), which directed the EAC to award grants of $2 million to each of
five eligible states to improve the collection of precinct level data relating to the November 2008
Federal elections. The act provided for the creation of the Election Data Collection Grant
Program, the purpose of which was to:

   •		 Develop and document a series of administrative and procedural best practices in election
       data collection that can be replicated by other States;

   •		 Improve data collection processes;

   •		 Enhance the capacity of States and their jurisdictions to collect accurate and complete
       election data; and

   •		 Document and describe particular administrative and management data collection


       practices, as well as particular data collection policies and procedures.



The States were to use the Grant funds to implement programs to improve the collection of data
relative to the November 2008 Federal general election and to improve the reporting of election
data at the precinct level. The Grants were awarded in May 2008 and were for a period of 13
months.

The States were to provide their report on the data collected from the November 2008 election to
the EAC by March 2009. In turn, the EAC was required to submit, by June 30, 2009, a report to
Congress on the impact of the Election Data Collection Grant Program on States’ abilities to
effectively collect Federal Election data. The EAC granted the Minnesota Secretary of State a
no-cost extension on the grant beyond June 30, 2009.

The Minnesota Secretary of State substantially completed the grant award requirements and
issued their final report to EAC by June 30, 2009 as required. This report issued on June 1, 2009
indicated to the EAC that they had $580,593 in unused grant funds. The Office requested a one
year no-cost extension so they could complete the grant project with the remaining
funds. Additionally, the Office requested a budget modification to shift tasks from the Office
personnel to contractual personnel. EAC granted them a no-cost extension through June 30,
2010. A summary of grant activity is as follows:




                                                2


                                   Data Collection Grant Activity

                     (a)            (b)              (c)            (d)
                  Proposed        As of            As of           As of        (d) - (c) = (e)
 Category          Amount      June 1, 2009    June 30, 2009   Dec. 31, 2009      Difference      Notes

Personnel     $     192,308    $     164,632   $     192,243    $     192,243   $        -          1
Fringes              57,692           46,593          54,713           54,713            -          1
Equipment           232,578          195,058         195,058          232,574         37,516
Contractual       1,517,422        1,023,055       1,471,440        1,517,389         45,949        1
Totals        $ 2,000,000      $ 1,429,338     $ 1,913,454      $ 1,996,919     $     83,465


     Note 1: The Office requested a budget modification on May 8, 2009 to reduce the total
     Personnel and Fringes to $250,000 and increase the Contractual to $1,517,422.

 The Office spent $83,465 subsequent to June 30, 2009. The expenditures were comprised of
 equipment purchased and contractual work. The equipment purchases were requisitioned prior to
 June 30, 2009. The Office did amend a contract with the primary consultant in June 2009 that
 provided additional time to finish the work. The Office did add two additional duties to the
 contractor as follows:

     1. Participate in testing and defect resolution processes as required.

     2. Creation and updates of process, procedural and user documentation.

 The duties above were transferred to the contractor as the Office could not provide those with the
 current staffing levels of the Office. Although, additional duties were added to the service
 contract, those duties did not deviate from the original scope of the grant award.


 AUDIT OBJECTIVES

 The objectives of our performance audit were to identify costs claimed in the Grant’s Financial
 Status Reports that are not allocable, allowable, reasonable, and in conformity with EAC award
 terms and conditions and applicable Federal grant requirements. The Office is required to follow
 the requirements of the Grant program’s legislation and program regulations, Grant award terms
 and conditions, Office of Management and Budget (OMB) Circular A-87 (2 CFR 225), Cost
 Principles for State, Local, and Indian Tribal Governments, and OMB Circular A-102, Grants and
 Cooperative Agreements with State and Local Governments.




                                                   3


SCOPE AND METHODOLOGY

We audited the Grant funds received and disbursed by the Office from May 27, 2008 through
June 30, 2010 as shown in the following table:

                          Award amount                 $ 2,000,000
                          Award funds received         $ 1,996,919
                          Program income                         -
                          Total available              $ 1,996,919

                          Program expenditures         $ 1,996,919
Our audit methodology is set forth in Appendix B.


AUDIT RESULTS

We conducted this performance audit in accordance with Generally Accepted Government
Auditing Standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on the audit objectives.

Based on the audit procedures performed, except for the matters discussed below, we concluded
that the Office accounted for and expended the Grant funds in accordance with the requirements
mentioned above for the period from May 27, 2008 through June 30, 2010. The exceptions to
applicable compliance requirements are described below.

Finding No. 1 – Inadequate Equipment Management

The Minnesota Secretary of State Office’s (Office) equipment management is inadequate in
regards to maintaining adequate property records.

The Uniform Administrative Requirements for Grants and Cooperative Agreements with State
and Local Governments 41 CFR § 105-71.132 (d)(1) (the “Common Rule”) section states that,
“Property records must be maintained that include a description of the property, a serial number
or other identification number, the source of property, who holds the title, the acquisition date,
and cost of the property, percentage of Federal participation in the cost of the property, the
location, use and condition of the property, and any ultimate disposition data including the data
of disposal and sale price of the property.”

The database used as the Office’s inventory system only includes a description of the property, a
serial number, source of property, who holds the title, acquisition date, cost of the property and
percentage of Federal participation and does not include fields for location, or use and condition
of inventory items. The Office has not disposed of any grant funded assets. Accordingly, no


                                                 4


disposition data was disclosed in the inventory listing. The Office conducts a physical inventory
on an annual basis where the Network Administrator creates a spreadsheet documenting all
equipment maintained in each office and then compares his spreadsheet with the inventory
system and any discrepancies are reconciled with the Fiscal Services Supervisor. The Office is
not able to adequately track any movement of equipment purchased with grant funds without
identifying the location in the inventory system and verifying that location during the physical
inventory. Additionally, equipment may be inoperable and need to be replaced or retired.

The audit sampled five invoices of equipment purchases which accounted for approximately
68% of the $232,574 charged to the grant. The sampled items were able to be physically
observed and were in working condition.

Adequate property records aid in the safeguarding of equipment purchased with federal funds
and in the performance of the physical inventory. The Office’s lack of adequate records as
required by the Common Rule may allow assets to become inoperable or to go missing without
timely detection.

Recommendation:

We recommend that the EAC require the Office to update its inventory system to include fields
detailing location, the use and condition of inventory items and provide a copy to EAC in order
to close out this finding. We further recommend the Office develop written procedures that
specify the information to be included in the Office’s property records for Federally-financed
capital assets.

Secretary of State Response:

   The Office will add fields to the existing inventory system to identify the location and use
   and condition of equipment purchased. Additionally, the Office has adopted policy with
   respect to equipment reporting.

Auditor’s Response:

   The corrective action plan is responsive to the concerns and will resolve the finding.

Finding No. 2 – Unsupported Payroll Costs Charged to the Grant
The Office did not accurately charge payroll costs to the grant based on percentage of effort for
each of the State employees.

Office of Management and Budget (OMB) Circular A-87, Cost Principles for State, Local, and
Indian Tribal Governments, Attachment B.8.h.(3), states that “Where employees are expected to
work solely on a single federal award or cost objective, charges for their salaries and wages will
be supported by periodic certifications that the employees worked solely on that program for the
period covered by the certification. These certifications will be prepared at least semi-annually
and will be signed by the employee or supervisory official having firsthand knowledge of the
work performed by the employee.”


                                                5

Attachment B.8.h.(4), states that “Where employees work on multiple activities or cost
objectives, a distribution of their salaries or wages will be supported by personnel activity reports
or equivalent documentation which meets the standards in subsection (5)… Such documentary
support will be required where employees work on… (b) A Federal award and a non Federal
award”
Attachment B.8.h.(5), states that “Personnel activity reports or equivalent documentation must
meet the following standards: (a) They must reflect an after the fact distribution of the actual
activity of each employee, (b) They must account for the total activity for which each employee
is compensated, (c) They must be prepared at least monthly and must coincide with one or more
pay periods, and (d) They must be signed by the employee.”

The Office requires a timesheet (Time Tracker) to be prepared by employees who work on
multiple activities or cost objectives in order to allocate payroll charges to the appropriate funds.
A review of the payroll allocations to the grant disclosed that actual hours were charged to EAC
as opposed to the relative percentage of effort expended on grant activities. For example, it was
noted that the Chief Information Officer worked a total of 103.75 hours during a two week
period. Of the 103.75 hours worked, only 23 (22.17%) were related to the Grant. However, the
employee is paid wages based on an 80 hour bi-weekly pay period and the grant was charged 23
direct hours which is 28.75% (23/80) of total salary. This resulted in an over-allocation of $412
for this employee for that payroll period.

Based on analysis provided by the Office for all employees charged to the grant, a total of $6,547
was over-allocated to the grant. Additionally, $21,123 was charged for one full-time staff person
that worked solely on this grant and the Office was not able to provide labor certifications to
support the payroll charges. Therefore, $27,670 of the $192,242 total salary charged was either
over allocated or unsupported and therefore considered questioned costs. The Office also
charged $54,713 in fringe benefits to the grant and based on the same analysis an estimated
$3,475 of fringe benefits are considered questioned costs. In total $31,145 of payroll costs are
identified as questioned costs. The Office did provide additional analysis to support that there
were hours worked on the grant that were not charged due to the limited available grant funds.

Recommendation:

We recommend that the EAC address and resolve the following recommendation that the
Minnesota Secretary of State’s Office:
   (a) Refund $31,145 of questioned costs arising from unsupported or over-allocated payroll
       costs.

   (b) The Office should document appropriate policies and procedures in written manuals and
       also providing training to personnel involved in the payroll process as necessary to ensure
       that the expenditure of future Federal award funds is adequately allocated and supported.




                                                 6


Secretary of State Response:

   You cite Office of Management and Budget (OMB) Circular A-87, particularly Attachments
   B.8.h. (3), (4) and (5).

      1.		 You indicate that Attachment (3) requires that there be a certification semi-annually
           that the employee worked full-time on a single federal award or cost objective. It is
           true that OSS has been unable to locate any such certification in the records of the
           Office. The individual who was the supervisor of the project left the office over two
           years ago. We have, however, located the job description of the employee in question
           which clearly delineates the job responsibilities of the position as tasks which were
           entirely under the EAC EDC Project. That document is attached. Again, the employee
           in question has been gone from employment for, in her case, nearly three years.

      2.		 You indicate that Attachments (4) and (5) require a certain allocation of salary and
           fringe expenses based on reports by the personnel in question. You indicated that in
           your opinion, the number of hours charged to the Federal grant should not have been
           the number of actual hours, but only a proportion of the actual hours worked for the
           Federal grant as compared to the total hours worked for both the Federal grant and on
           non-Federal work.

          It is not clear to OSS what is the basis for this portion of the finding, because there is
          nowhere in the policies cited in this finding, a statement to this effect. The policies
          indicate that there must be records of the time worked on various matters, but there is
          no indication in the finding that the employees working on both the Federal and non-
          Federal work did not keep the necessary records. We would appreciate a more
          complete description of the basis in rule for not allowing the full amount of the time
          worked for a Federal grant to be charged to a Federal grant.

      3.		 In your finding you indicate “The Office did provide additional analysis to support
           that there are hours worked on the grant that were not charged due to the limited
           available grant funds.”

          OSS completed the EAC EDC Project in June, July, August and September 2009 by
          spending $79,561.42 of State money, over and above the amounts charged to the
          Federal grant. This sum would have been charged to the Federal grant if sufficient
          Federal funds had been available. If EAC determines that $31,145 should not have
          been spent from Federal grant funds based upon this finding, OSS asks EAC to allow
          OSS to allocate the above referenced $79,561.42 to the grant, thus resulting in a set­
          off where no funds would be exchanged.

          The spreadsheet which we had previously provided is again attached to this response.
          It shows in the “Worked Not Billed” tab the total amounts broken down by pay
          period and employee. They are quite significant. If it had been clear that there would
          have been disallowances of claims against the grant, we certainly would have claimed
          a portion of these amounts from the Federal grant.



                                                7

Auditor’s Response:

   The Office did provide a job description that indicates that the employee in question was
   hired specifically for the Election Data Collection Grant. However, without a semi-annual
   labor certification or periodic timesheets signed by the employee or supervisory official
   having firsthand knowledge of the work performed by the employee it cannot be assured that
   100% of the time worked was dedicated to the Election Data Collection Grant.

   Attachment B.8.h.(4), states that distribution of employees salaries or wages will be
   supported by personnel activity reports or equivalent documentation. This would indicate that
   payroll charges should be allocated to Federal grants based on the percentage of effort
   worked by each employee.

   The Office did provide analysis and documentation to support that hours were incurred that
   were not charged to the grant as a result of limited available grant funds.

Finding No. 3 – Documentation of Policies and Procedures

Key internal control policies affecting financial management activities including purchasing,
payment, Federal financial reporting, property management process and Federal grant oversight
and administration, have not been addressed in a departmental policy and procedure document.
The Office relies on written guidelines set forth in State manuals, statutes and other publications
and written job descriptions that provide tasks and responsibilities. Accordingly, documented
internal control policies at the departmental level are minimal.

Federal regulations, specifically 41 CFR 105-71.120(b)(3) - Post-Award Requirements/Financial
Administration, Standards for Financial Management Systems, Internal Control, require that:

   (a) A State must expand and account for grant funds in accordance with State laws and
       procedures for expending and accounting for its own funds, and

   (b) Effective control and accountability must be maintained for all grant and subgrant cash,
       real and personal property, and other assets.

Minnesota Management and Budget (MMB) Statewide Operating Policy 0102-01 states, “The
head of each executive branch state agency (excluding the Minnesota State Colleges and
University system) must design, implement, and maintain an effective system of internal
controls. This system must: (3) Require documentation of internal control procedures over
financial management activities, provide for analysis of risks, and provide for periodic evaluation
of control procedures to satisfy the MMB Commissioner that these procedures are adequately
designed, properly implemented, and functioning effectively. ”

Additionally, the Minnesota Department of Administration revised statewide policy, Property
Management Reporting and Accountability, states that each agency is required to establish
departmental policies to account for property acquired for use in a work location and off-site.




                                                8


A key aspect of maintaining an effective system of internal controls is the documentation of
related policies and procedures to ensure these criteria are current, approved, communicated,
incorporated into training materials, and updated when appropriate.

The lack of documented departmental internal control policies and procedures may result in lack
of awareness and compliance of regulations, and could allow noncompliance with grant terms
and conditions to occur and not be detected.

Recommendation

We recommend that the EAC require the Office to complete and document internal control
procedures and other appropriate policies in written manuals and also provide training to
personnel involved in the administration of future Federal awards. Specifically, these policies
and procedures should address financial management activities including purchasing, payment,
Federal financial reporting, property management process and Federal grant oversight and
administration. Additionally, these procedures should be reviewed and updated on a regular
basis.

Secretary of State Response:

   The Office has adopted seven new policies to address financial management activities,
   including purchasing, payment, Federal financial reporting, property management and
   Federal grant oversight and administration.

Auditor’s Response:

   The Office has adopted departmental specific policies that should be considered by EAC in
   resolving the finding.

We provided a draft of our report to the appropriate individuals of the Office of the Secretary of
State. We considered any comments received prior to finalizing this report.

The Office responded on August 26, 2013 and generally agreed with the report’s findings and
recommendations. The EAC responded on August 12, 2013 and stated they would work with the
Office to resolve the issues and ensure appropriate corrective action. The Office’s complete
response is included as Appendix A-1 and EAC’s complete response as Appendix A-2.

McBride, Lock & Associates performed the related audit procedures between January 28, 2013
and May 28, 2013.

(Original Signed by McBride, Lock & Associates)

McBride, Lock & Associates
May 28, 2013




                                                9


                                               STATE OF MINNESOTA
                                            Office of Minnesota Secretary of State


                                                        Mark Ritchie



                                                         August 26, 2013
Curtis Crider
Inspector General
Election Assistance Commission
1201 New York Avenue NW, Suite 300
Washington DC 20005

Dear Inspector General Crider,

This is the Final Response of the Office of the Secretary of State of Minnesota (OSS) to the Audit
conducted by the Election Assistance Commission (EAC) through its auditors, McBride, Lock &
Associates.

OSS appreciates the opportunity to make this response as well as the opportunity to discuss the findings
during the exit conference call.

OSS understands the three findings and has taken the following actions to resolve them:

        With respect to Finding No. 1 with respect to Equipment Management, OSS proposes to add
fields regarding the location, use and condition of inventory items to an existing data system. An
example of the template is attached, as is a policy that has been adopted by OSS with respect to
equipment reporting.

      With respect to Finding No. 2 with respect to payroll costs, OSS has no further response but will
work with the EAC Grants Administrator to resolve any outstanding charges to this grant.

       Finally, with respect to Finding No. 3 with respect to OSS-specific policies, OSS has adopted
seven policies responsive to the finding; those policies are attached to this letter.

OSS wishes to express its thanks for the cooperation of EAC and the auditors and we look forward to
working with the EAC in the future.

Best regards,


Bert Black
Legal Advisor
Office of the Secretary of State of Minnesota

                180 State Office Building | 100 Rev. Dr. Martin Luther King, Jr. Blvd. | Saint Paul, MN 55155-1299


                      Phone: 651-201-1324 or 1-877-600-8683 | Fax: 651-215-0682 | MN Relay Service: 711


                               E-mail: secretary.state.@state.mn.us | Web site: www.sos.state.mn.us


                    EAC RESPONSE TO THE DRAFT AUDIT:
                    OIG Performance Audit Report - Election Data Collection
                    Grant Program Award Number : OB-EDC-B00166, State of
                    Minnesota ·


August 12, 2013 


MEMORANDUM 


To:           Curtis Crider
              Inspector General     / ). j}

From:        Alice P. Miller, Chief9'~i '~~~ &
             Acting Executive Director

Subject: 	    Draft Performance Audit Report - Election Data Collection Grant
              Program Award Number: OB-EDC-B00166, State of Minnesota

Thank you for this opportunity to review and respond to the draft audit report of
the Minnesota Office of the Secretary of State (OSS) .

The Election Assistance Commission (EAC) will work with the OSS to ensure
appropriate corrective action.
                                                                                     Appendix B

                               AUDIT METHODOLOGY


Our audit methodology included:

   •		 Assessing audit risk and significance within the context of the audit objectives.
   •		 Obtaining an understanding of internal control that is significant to the administration of
       the Grant funds and of relevant information systems controls as applicable.
   •		 Identifying sources of evidence and the amount and type of evidence required.
   •		 Determining whether other auditors have conducted, or are conducting, audits of the
       program that could be relevant to the audit objectives.

To implement our audit methodology, below are some of the audit procedures we performed.

    •		 Interviewed appropriate Office employees about the organization and operations of the
        Grant program.
    •		 Reviewed prior single audit report and other reviews related to the State’s financial
        management systems and the Grant program for the period under review.
    •		 Reviewed policies, procedures and regulations for the Office management and
        accounting systems as they relate to the administration of the Grant program.
    •		 Analyzed the inventory lists of equipment purchase with Grant funds
    •		 Tested major purchases, in the form of contractual services, and the supporting
        documentation.
    •		 Tested randomly sampled payments made with Grant funds.
    •		 Evaluated compliance with the requirements for accumulating financial information
        reported to the Commission on the financial status reports and progress reports, Form
        SF-269 and SF-PPR, accounting for property, purchasing Grant related goods and
        services, and accounting for salaries.




                                               12


                                                                      Appendix C

     SCHEDULE OF AWARDS AS OF JUNE 30, 2010


                                              Budget         Actual

 Personnel Costs                          $    192,308   $    192,243
 Fringe Benefits                                57,692         54,713
    Total Project Staffing Costs          $    250,000   $    246,956

 Contractual Costs                        $ 1,517,422    $ 1,517,389

 Equipment                                $    232,578   $    232,574

Total Costs                               $ 2,000,000    $ 1,996,919




                                   13


                                                                     Appendix D

    MONETARY IMPACT AS OF JUNE 30, 2010

                                                    Additional
                                   Questioned       Funds for
          Description                Costs          Program
Unsupported Payroll Costs          $   31,145   $                ­
Total                              $   31,145   $                ­




                            14


                      The OIG audit mission is to provide timely, high-quality
                      professional products and services that are useful to OIG’s clients.
                      OIG seeks to provide value through its work, which is designed to
                      enhance the economy, efficiency, and effectiveness in EAC
OIG’s Mission         operations so they work better and cost less in the context of
                      today's declining resources. OIG also seeks to detect and prevent
                      fraud, waste, abuse, and mismanagement in these programs and
                      operations. Products and services include traditional financial and
                      performance audits, contract and grant audits, information systems
                      audits, and evaluations.


                      Copies of OIG reports can be requested by e-mail.
                      (eacoig@eac.gov).

                      Mail orders should be sent to:
Obtaining
Copies of             U.S. Election Assistance Commission
                      Office of Inspector General
OIG Reports
                      1201 New York Ave. NW - Suite 300
                      Washington, DC 20005
                      To order by phone: Voice: (202) 566-3100
                                          Fax: (202) 566-0957


To Report Fraud,      By Mail: 	U.S. Election Assistance Commission
Waste and Abuse                 Office of Inspector General
Involving the U.S.              1201 New York Ave. NW - Suite 300
Election Assistance             Washington, DC 20005
Commission or Help
                      E-mail:   eacoig@eac.gov
America Vote Act
Funds                 OIG Hotline: 866-552-0004 (toll free)

                      FAX: 202-566-0957
